                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         A preliminary investigation1involving the proactive review of various Conference Grants
         identified a couple of concerns regarding an NSF ward^ and on August 19,2004 the
         investigation was converted to an I-Case.

         The first issue identified a potential conflict of interest between one of the CO-p.1.s3and the
         company4hosting the conference. The second issue identified a potential violation of A1 10
         Procurement Standards based on all participants being directed to utilize a specific travel Fgency
         to obtain airline tickets to attend the conference.

         On December 22,2003 we requested additional documentation from the ran tee' and
         subsequently received their reply6on February 18,2004. Included in their response was a
         detailed listing of all the conference participants that received support from the award and'the
         nature of the support. They also identified the amounts paid to both the travel agency and the
         host company and the purpose of the payments.

         A review of this information failed to identi@ any violations of either the Grant Conditions or
         Federal Statutes and therefore does not require any further action by our office.

         Accordingly, this case is closed.




NSF OIG Form 2 ( 1 1/02)
